App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-40044
-----------------------------------------------------------------------

JOSE LUIS GARZA, individually and as
Representatives of The Estate of Jose Luis Garza, Jr.,
Deceased; VERONICA GARZA, individually
and as Representatives of The Estate of
Jose Luis Garza, Jr., Deceased; CYNTHIA LOPEZ,
As Next Friend of J.R.G., Minor Son.
Plaintiffs - Appellants
v.
CITY OF DONNA
Defendant - Appellee
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
-----------------------------------------------------------------------

(Filed April 26, 2019)
Before JOLLY, DENNIS, and HIGGINSON, Circuit
Judges.
STEPHEN A. HIGGINSON, Circuit Judge.
On February 19, 2016, in a detention facility operated by the Donna Police Department in Donna,
Texas, Jose Luis Garza died by suicide. His estate and

App. 2
survivors brought this suit under 42 U.S.C. § 1983
against a lone defendant, the City of Donna, alleging
violations of the Fourteenth Amendment’s Due Process
Clause in the time leading up to, and immediately
following, Garza’s suicide. The district court granted
summary judgment to the City, and we affirm.
I
In the early morning of February 19, 2016, officers
of the Donna Police Department (“DPD”) responded to
a 911 call by Veronica Garza. Her call concerned her
son, Jose Luis Garza, who was heavily intoxicated and
arguing with his brother at the family’s home. Officer
Mario Silva was the first to respond at around 5:40
AM, with two other DPD officers soon joining. Veronica
told officers that “I feared for his life” and “I’m afraid
of him hurting himself.” Officer Silva arrested Jose
Luis Garza for “assault by threat” and transported him
to DPD’s facility. Though called a “jail,” the district
court clarified that it is “a short-term holding facility
where—unlike a county jail or state prison—detainees
do not stay long.” Officer Silva booked Garza into the
jail and placed him in a cell just after 6 AM. Officer
Silva took no particular mental-health precautions
when he brought Garza to the jail.
Garza was placed in a cell that contained a camera, and some time after 8 AM, he obscured the camera’s lens. A DPD employee, Minerva Perez, was tasked
with monitoring the jail’s camera feeds under the jail’s
written policy. Her shift had begun at 6 AM, and during

App. 3
the morning, she answered 911 calls, one of her other
duties. She did not notice that Garza had blocked the
camera in his cell. She would later assert that, once
jailers arrived to start their shifts, it was their responsibility to monitor the jail’s inmates.
Those jailers were Esteban Garza—no relation to
the decedent—and Nathan Coronado, who started
their shifts at 8 AM. The jailers heard Garza banging
on his cell door and making other noise to get their attention. It is disputed whether Garza’s noisemaking
prompted the jailers to check on him. The jail’s written
policy required hourly cell checks. The jail’s log showed
a check was done at 8:10 AM, though the check was not
recorded contemporaneously.1 After that point, the jailers worked on signs that DPD’s police chief, Ruben De
Leon, directed them to put up in the jail. One read
“Welcome to Donna Hilton,”2 and another showed the
logo of the Punisher, a comic-book character known for
carrying out vigilante justice. Occupied with the signs,
the jailers missed that Garza had hanged himself, and
it took the chance arrival of agents from U.S. Immigration and Customs Enforcement (ICE) for Garza’s suicide to be discovered. The ICE agents had arrived at

1

Jailer Garza added the 8:10 AM check to the jail’s cell-check
log after Garza’s death and after the Texas Rangers concluded
their post-incident investigation. The actual occurrence of the
check is thus a sharply contested fact issue.
2
Appellants interpret the “Donna Hilton” sign as a reference
to the notorious Vietnam POW camp, the so-called “Hanoi Hilton.”

App. 4
8:40 AM and found him at 8:49 AM. It was unclear how
long he had been hanging.
Once Garza was discovered hanging, roughly two
minutes passed before Lieutenant Rene Rosas and
Captain Ricardo Suarez of DPD began performing
CPR on him. During this time, emergency help was
called, and it arrived in the form of Hidalgo County
emergency medical technician Frank Tafolla. Rosas
and Suarez had vigorously performed CPR in the interim, but they did not answer Tafolla’s questions
about what had happened to Garza. Consequently,
Tafolla, who transported Garza to the hospital, lacked
information to relay to hospital staff upon arrival.
Garza was pronounced dead at the hospital at 9:12
AM.
This lawsuit against the City of Donna via 42
U.S.C. § 1983 followed. Garza’s estate, mother, and son
alleged violations of due process under the Fourteenth
Amendment in the hours leading up to Garza’s suicide
and in the moments that followed. Their suit called five
aspects of the events of February 19 into question, each
implicating the actions of different DPD employees:
Officer Silva, the arresting officer who booked Garza
into the jail; Minerva Perez, the employee allegedly responsible for watching the camera monitoring Garza’s
cell; the two jailers, Esteban Garza and Nathan Coronado, who were present but did not discover Garza’s
suicide; the two senior DPD officers, Lieutenant Rosas
and Captain Suarez, who performed CPR on Garza
but allegedly did not relate information to Tafolla, the
EMT; and the police chief, Ruben De Leon, whose

App. 5
instruction to install the “Donna Hilton” and Punisher
signs had allegedly occupied the two jailers’ attention
that morning. The district court rejected each proposed
basis for municipal liability and granted summary
judgment to the City, from which this appeal arises.
II
Summary judgment is appropriate if “the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). We review the district court’s decision de novo, applying the same legal
standard used by the district court. Hyatt v. Thomas,
843 F.3d 172, 176–77 (5th Cir. 2016). We view all evidence in the light most favorable to the non-movant
and draw all reasonable inferences in its favor. E.E.O.C.
v. LHC Group, Inc., 773 F.3d 688, 694 (5th Cir. 2014).
III
“The constitutional rights of a pretrial detainee
. . . flow from both the procedural and substantive due
process guarantees of the Fourteenth Amendment.”
Hare v. City of Corinth, Miss., 74 F.3d 633, 639 (5th Cir.
1996) (en banc) (citing Bell v. Wolfish, 441 U.S. 520
(1979)). These rights include the right to medical care,
Sanchez v. Young County, Tex., 866 F.3d 274, 279 (5th
Cir. 2017), and the right to protection from known suicidal tendencies, Flores v. County of Hardeman, Tex.,
124 F.3d 736, 738 (5th Cir. 1997).

App. 6
A municipality may be liable under 42 U.S.C.
§ 1983 for the violation of these rights. See Monell
v. Dep’t of Soc. Servs. of City of N.Y., 436 U.S. 658,
690 (1978). When attributing violations of pretrial
detainees’ rights to municipalities, the cause of those
violations is characterized either as a condition of confinement or as an episodic act or omission. Hare, 74
F.3d at 644. Cases of the former are attacks on “general
conditions, practices, rules, or restrictions of pretrial
confinement.” Id. In cases of the latter, “the complained-of harm is a particular act or omission of one
or more officials,” and “an actor usually is interposed
between the detainee and the municipality.” Scott v.
Murphy, 114 F.3d 51, 53 (5th Cir. 1997) (en banc).
Appellants presented a conditions theory and numerous episodic-act theories to the district court, all of
which were rejected. We take each in turn.
A
In a case challenging conditions of confinement,
“the proper inquiry is whether those conditions amount
to punishment of the detainee.” Bell, 441 U.S. at 535.
“[I]f a restriction or condition is not reasonably related
to a legitimate goal—if it is arbitrary or purposeless—
a court permissibly may infer that the purpose of the
governmental action is punishment that may not constitutionally be inflicted upon detainees qua detainees.” Id. at 539. Our court has said that a condition may
take the form of “a rule,” a “restriction,” “an identifiable
intended condition or practice,” or “acts or omissions”

App. 7
by a jail official that are “sufficiently extended or pervasive.” Estate of Henson v. Wichita County, Tex., 795
F.3d 456, 468 (5th Cir. 2015) (quoting Duvall v. Dallas
County, Tex., 631 F.3d 203, 207 (5th Cir. 2011)). Per
Bell, such condition must be “not reasonably related to
a legitimate governmental objective” and must cause
the inmate’s constitutional deprivation. Id.
Appellants’ conditions theory centers on the signs
that Ruben De Leon, DPD’s police chief, ordered installed in the jail. Those signs, as noted, bore the message “Welcome to Donna Hilton” and the Punisher logo,
respectively, and Jailers Garza and Coronado were
assembling them at the critical time on February 19.
Appellants view the Donna Hilton sign as “mockingly
invok[ing] the torture of POWs.” Donna officials venture a positive interpretation of the sign. De Leon said
he “wanted buy in from the jailers and the staff to
remember that we’re here to serve—the people who
come in, some people call them prisoners. I call them
customers.” Robert Calloway, a Texas Ranger who investigated Garza’s death, saw it as a reference to the
Vietnam POW camp, as Appellants do.
Appellants view the Punisher logo as “favorably
advocat[ing] vigilante violence.” At summary judgment, Appellants argued at length for a “link between
Punisher imagery and abusive police behavior.” Among
other sources, they relied on a dissenting opinion in a
recent Eighth Circuit case, which, citing Wikipedia,
explained that the Punisher was an “antihero” figure
“created by Marvel Comics in 1974 as an antagonist
to Spider-Man,” who “considers killing, kidnapping,

App. 8
extortion, coercion, threats of violence, and torture to
be acceptable crime fighting tactics.” Stitzes v. City of
West Memphis, Ark., 606 F.3d 461, 472 n.9 (8th Cir.
2010) (Lange, J., dissenting).
In Appellants’ view, the signs, taken together, announce an “official policy of prisoner mistreatment” or
“official encouragement of intentional mistreatment of
detainees.” They argue that the signs should thus be
categorized as a “condition” of the confinement to
which Garza was subjected. The signs “served no valid
governmental purpose,” and their installation caused
Garza’s constitutional deprivation because it preoccupied Jailers Garza and Coronado to the detriment of
their core duties.
The district court declined to consider Appellants’
suit as a conditions-of-confinement case. It cited several similar jail-suicide cases that our court elected to
treat as episodic-act cases, rather than conditions
cases. See Anderson v. Dallas County, Tex., 286 F. App’x
850, 858 (5th Cir. 2008); Flores, 124 F.3d at 738. It applied our court’s rule that theories in which a particular actor is “interposed” between the injured party and
the municipal defendant are properly treated as episodic-act cases.3 All of Appellants’ theories ultimately
3

The district court did go a step beyond our precedent by asserting that our court “uniformly” holds that jail-suicide cases are
to be decided on an episodic-act basis. In a recent case, we allowed
that a jail suicide might give rise to a conditions theory. Sanchez,
866 F.3d at 279. As we explained, “plaintiffs can bring a pretrial
detainee case, whether or not it ultimately involves suicide, under
alternative theories of episodic acts and omissions by individual
defendants or unconstitutional conditions of confinement.” Id. at

App. 9
turn on acts or, more often, omissions by DPD staff,
making this an episodic-act case. The theory of the distracted jailers, for instance, turns on the jailers’ alleged
omission of required cell checks.
Appellants’ conditions theory is an effort to fit a
square peg into a round hole. Prior conditions cases
have concerned durable restraints or impositions on
inmates’ lives like overcrowding, deprivation of phone
or mail privileges, the use of disciplinary segregation,
or excessive heat. See Yates v. Collier, 868 F.3d 354, 360
(5th Cir. 2017) (heat); Scott, 114 F.3d at 53 & n.2 (collecting other examples). The import of the Donna jail’s
signs is too nebulous to amount to an official rule or
restriction, and the signs do not operate as a continuing burden on inmate life in the way that dangerously
high temperatures or overcrowded cells do. As such,
the district court was correct to reject Appellants’ conditions theory.
B
To establish municipal liability in an episodic-act
case, a plaintiff must show “(1) that the municipal employee violated the pretrial detainee’s clearly established constitutional rights with subjective deliberate
indifference; and (2) that this violation resulted from a
municipal policy or custom adopted and maintained
with objective deliberate indifference.” Brumfield v.
279 n.3. Because the district court in that case had not considered
that possibility, we remanded with instructions to do so. Id. at
279.

App. 10
Hollins, 551 F.3d 322, 331 (5th Cir. 2008) (quoting
Olabisiomotosho v. City of Houston, 185 F.3d 521, 528–
29 (5th Cir. 1999)).
The district court’s analysis focused on the first
prong of the episodic-act framework as applied to each
employee whose conduct Appellants put in question,
scrutinizing the employee’s knowledge and state of
mind. The district court’s formulation of “subjective deliberate indifference” was central to its rulings. The
district court defined “subjective deliberate indifference” as follows: “a plaintiff must show that public officers were [1] aware of facts from which an inference
of a substantial risk of serious harm to an individual
could be drawn; [2] that they actually drew the inference; and [3] that their response indicates subjective
intention that the harm occur.” The district court drew
this quote from Sanchez v. Young County, Tex., 866 F.3d
274, 280 (5th Cir. 2017). The third element, “subjective
intention that the harm occur,” recurs in the district
court’s analysis,4 and it is the object of Appellants’ criticism.

4

See Garza v. City of Donna, 2017 WL 6498392, at *9 (S.D.
Tex. Dec. 15, 2017) (“Silva’s response (taking no special action to
prevent Decedent from committing suicide) does not indicate a
‘subjective intention that the [suicide] occur.’ ”); id. at *11 (“There
is also no evidence that [Esteban] Garza’s failure to intercede was
motivated by a ‘subjective intention that the [suicide] occur. . . .”);
id. at *12 (“Coronado’s lack of special supervision or intervention
does not indicate a subjective intention that Decedent commit suicide.”); id. at *13 (“[A] fact finder could not reasonably infer that
Perez’s dereliction of her duty to monitor indicate subjective intention that Decedent commit suicide.”); id. at *13 (“It is thus

App. 11
The district court’s “intention” requirement, though
taken from statements in decisions of our court, is contrary to the weight of our case law and to the Supreme
Court precedent from which our cases flow. Our court
has based its Fourteenth Amendment case law concerning pretrial detainees on the Supreme Court’s
Eighth Amendment precedent concerning prisoners.
See Hare, 74 F.3d at 643–44 (citing Farmer v. Brennan,
511 U.S. 825 (1994)). Among those borrowings is our
understanding of subjective deliberate indifference. In
Farmer, the Supreme Court distinguished that culpable mental state from negligence, on the one hand, and
knowledge and intent, on the other: “While Estelle
establishes that deliberate indifference entails something more than mere negligence, the cases are also
clear that it is satisfied by something less than acts or
omissions for the very purpose of causing harm or with
knowledge that harm will result.” 511 U.S. at 835 (citing Estelle v. Gamble, 429 U.S. 97 (1976)). “It is, indeed,
fair to say that acting or failing to act with deliberate
indifference to a substantial risk of serious harm to a
prisoner is the equivalent of recklessly disregarding
that risk.” Id. at 836. The Court ultimately held that
an official cannot be found liable “unless the official
knows of and disregards an excessive risk to inmate
safety; the official must both be aware of facts from
which the inference could be drawn that a substantial

impossible to infer . . . that Ruben [De Leon] intended Decedent
to kill himself. . . .”); id. at *14 (“The events before and after this
thirty-second failure to administer CPR do not suggest Defendant’s employees intended that Decedent die or otherwise suffer.”).

App. 12
risk of serious harm exists, and he must also draw the
inference.” Id. at 837.
Farmer therefore provides the first two elements
of the deliberate-indifference standard applied by the
district court, but not its third, that there be a “subjective intention that the harm occur.” This third element
elevates the required showing beyond what Farmer directed to a level that Farmer expressly distinguished.
The district court’s cited authority for this element,
Sanchez v. Young County, relied on Thompson v. Upshur County, Tex., 245 F.3d 447, 458 (5th Cir. 2001).
Thompson, in turn, paraphrased Hare v. City of Corinth, in which our en banc court applied Farmer to pretrial detainees. In Hare, however, the phrase was no
more than a passing remark in an extended admonition. The challengers had argued that pretrial detainees deserved more protection than convicted prisoners
and were pushing for a less demanding standard than
Farmer’s deliberate-indifference test. Rejecting that
separate, contested argument, our court quoted a Seventh Circuit decision and said:
We share the concern of the Seventh Circuit
that the Farmer standard not be transmuted
into a negligence inquiry. “Deliberate indifference, i.e., the subjective intent to cause harm,
cannot be inferred from a prison guard’s failure to act reasonably. It if it could, the standard applied would be more akin to negligence
than deliberate indifference.”
74 F.3d at 649 (emphasis added). No citation accompanied this quote, which appears to be taken from Gibbs

App. 13
v. Franklin, 49 F.3d 1206, 1208 (7th Cir. 1995), a decision that came shortly after Farmer and viewed
Farmer as working no change in Seventh Circuit precedent. Id. That court fixed its error the next year. See
Haley v. Gross, 86 F.3d 630, 641 (7th Cir. 1996) (“To the
extent that any language in our prior cases may have
suggested that a plaintiff inmate making a deliberate
indifference claim must establish that prison officials
intended the harm that ultimately transpired, those
statements do not accurately state the law in this circuit post Farmer v. Brennan.”) (citing Gibbs, 49 F.3d at
1207).
Though “subjective intention” and its variants
have occasionally appeared in our decisions beyond the
aforementioned instances,5 far more often we adhere
5

See Brown v. Strain, 663 F.3d 245, 249 (5th Cir. 2011) (“subjectively intended that harm to occur”); Tamez v. Manthey, 589
F.3d 764, 770 (5th Cir. 2009) (“subjectively intended that harm
occur”); Mace v. City of Palestine, 333 F.3d 621, 626 (5th Cir. 2003)
(“subjective intent to cause harm”); Wagner v. Bay City, Tex., 227
F.3d 316, 324 (5th Cir. 2000) (“subjective intent to cause harm”).
Wagner relied on the same remark in Hare as Thompson had, and
Mace followed Wagner; Tamez followed Thompson, and Brown
then followed Tamez.
In these cases, unlike in the district court’s decision here, the
“subjective intent” prong has typically not played a central role.
In Brown, the interlocutory posture did not confer jurisdiction to
review the factual record of deliberate indifference. See 663 F.3d
at 250–51. In Tamez, the defendants were not even aware of the
risk of harm, much less indifferent or purposeful regarding that
risk. See 589 F.3d at 771. In Thompson, the court’s rulings as to
two defendants turned on the existence of clearly established law
for qualified immunity purposes, while the ruling as to the third
turned on the objective reasonableness of her conduct, not her
state of mind. See 245 F.3d at 460–64. In Sanchez, deliberate

App. 14
to Farmer’s formulation: “the official knows of and disregards an excessive risk to inmate safety.” 511 U.S. at
837. See, e.g., DeLaughter v. Woodall, 909 F.3d 130, 136
(5th Cir. 2018); Perniciaro v. Lea, 901 F.3d 241, 257 (5th
Cir. 2018); Jones v. Tex. Dep’t of Crim. Justice, 880 F.3d
756, 759 (5th Cir. 2018); Grogan v. Kumar, 873 F.3d
273, 277 (5th Cir. 2017); Alderson v. Concordia Parish
Corr. Facility, 848 F.3d 415, 419–20 (5th Cir. 2017); Hyatt, 843 F.3d at 179; Hinojosa v. Livingston, 807 F.3d
657, 665 (5th Cir. 2015); id. at 684 (Jones, J., dissenting); Williams v. Hampton, 797 F.3d 276, 281 (5th Cir.
2015) (en banc); Estate of Henson, 795 F.3d at 464;
Brumfield, 551 F.3d at 331; Domino v. Tex. Dep’t of
Crim. Justice, 239 F.3d 752, 755 (5th Cir. 2001); Jacobs
v. W. Feliciana Sheriff ’s Dep’t, 228 F.3d 388, 395 (5th
Cir. 2000); Sibley v. Lemaire, 184 F.3d 481, 489 (5th Cir.
1999); Downey v. Denton County, Tex., 119 F.3d 381, 385
(5th Cir. 1997); Hare, 74 F.3d at 648–49 (en banc). In
this line of cases, which includes en banc decisions
two decades apart,6 none requires proof that officials
indifference was one of four grounds on which the panel majority
rejected the plaintiffs–appellants’ municipal liability claim. See
866 F.3d at 280–81. While “subjective intent” appeared in the definition of deliberate indifference, it did not figure expressly in the
court’s analysis of the facts. See 866 F.3d at 280. But see Mace,
333 F.3d at 626 (looking for evidence “indicating that the [defendant] intentionally delayed driving [an] ambulance in order to
cause harm”); Wagner, 227 F.3d at 325 (considering whether the
facts could show that “defendants intended to harm” the decedent
in the case).
6
However one might square the passing remark in Hare
with the standard that case announced, our 2015 en banc decision
in Williams v. Hampton was unambiguous. The majority and dissenting opinions agreed that Farmer’s “knows and disregards”

App. 15
subjectively intend that the harm occur. The case law
of the other circuits adheres to Farmer and hence does
not require a showing of subjective intent either.7
Though we cannot fault a district court that followed statements we have previously made, we cannot
endorse an analysis that departed from controlling Supreme Court and law. We can, however, “affirm on any
ground raised below and supported by the record, even
if the district court did not reach it.” Williams v. J.B.
Hunt Transp., Inc., 826 F.3d 806, 810 (5th Cir. 2016).
As explained above, to establish municipal liability based on an employee’s episodic act or omission,
a plaintiff must show the violation “resulted from a
formulation governed. See 797 F.3d at 281 (Owen, J.) (majority
opinion); id. at 301 (Graves, J., dissenting).
7
See Leite v. Bergeron, 911 F.3d 47, 52 (1st Cir. 2018)
(“knows of and disregards”); Walker v. Schult, 717 F.3d 119, 125
(2nd Cir. 2013) (“know of, and disregard”); Palakovic v. Wetzel,
854 F.3d 209, 225 n.17 (3rd Cir. 2017) (“knew or was aware of and
disregarded”); Thompson v. Virginia, 878 F.3d 89, 107 (4th Cir.
2017) (“knew of and disregarded”); Guertin v. Michigan, 912 F.3d
907, 926 (6th Cir. 2019) (“knew of facts from which they could infer a substantial risk of serious harm, that they did infer it, and
that they acted with indifference toward the individual’s rights”);
Daugherty v. Page, 906 F.3d 606, 611 (7th Cir. 2018) (“knew of
and consciously disregarded”); Barr v. Pearson, 909 F.3d 919, 921
(8th Cir. 2018) (“knew of and deliberately disregarded”); Hines v.
Youseff, 914 F.3d 1218, 1229 (9th Cir. 2019) (“knows . . . and disregards”); Vasquez v. Davis, 882 F.3d 1270, 1275 (10th Cir. 2018)
(“knew of and disregarded”); Mitchell v. Nobles, 873 F.3d 869, 876
(11th Cir. 2018) (“(1) subjective knowledge of a risk of serious
harm; (2) disregard of that risk; and (3) by conduct that is more
than mere negligence”); Acosta v. Nelson, 561 F. App’x 4, 5 (D.C.
Cir. 2014) (“knows of and disregards”).

App. 16
municipal policy or custom adopted and maintained
with objective deliberate indifference.” Brumfield, 551
F.3d at 331. A policy or custom may be attributed to a
municipal defendant through the identification of a final policymaking authority. See Bd. of County Comm’rs
of Bryan County, Okla. v. Brown, 520 U.S. 397, 407
(1997); City of St. Louis v. Propotnik, 485 U.S. 112, 123
(1988). Identification of an official as a final policymaking authority is a question of state and local law.
Propotnik, 485 U.S. at 124. We have previously found
that Texas police chiefs are final policymakers for their
municipalities, and it has often not been a disputed issue in the cases. See, e.g., Zarnow v. City of Wichita
Falls, Tex., 614 F.3d 161, 168 (5th Cir. 2010) (concluding, from promulgation of “General Orders” by police
chief, that he was final policymaking authority for “internal police policy”); Peterson v. City of Fort Worth,
Tex., 588 F.3d 838, 847–48 (5th Cir. 2009) (not disputed); Lewis v. Pugh, 289 F. App’x 767, 776 (5th Cir.
2008) (not disputed).
Assuming Ruben De Leon was a final policymaking authority for the City, Appellants must show a policy or custom of his that was the moving force for the
episodic acts or omissions of DPD employees. James v.
Harris County, 577 F.3d 612, 617 (5th Cir. 2009). Policy
can take the “form of written policy statements, ordinances, or regulations.” Id. It can be “a widespread
practice that is ‘so common and well-settled as to constitute a custom that fairly represents municipal policy.’ ” Id. (quoting Piotrowski v. City of Houston, 237
F.3d 567, 579 (5th Cir. 2001)). It can take the form of a

App. 17
failure to train, provided that the failure is “closely related to the ultimate injury” and not just attributable
to a particular officer’s shortcomings. City of Canton,
Ohio v. Harris, 489 U.S. 378, 388–91 (1989). It can also
be a decision to adopt a course of action to handle a
particular situation, if made by an authorized decisionmaker. Pembaur v. City of Cincinnati, 475 U.S. 469,
480–81 (1986).
Appellants do not attribute the actions of the arresting officer, Silva, or the senior officers who performed CPR, Rosas and Suarez, to any particular
policy or custom. What they argue for Silva, Rosas, and
Suarez is that De Leon’s order to post the “Welcome to
Donna Hilton” and “Punisher” signs announced an official policy of detainee mistreatment. The import of
the signs is too general and inexact for the signs to constitute the sort of specific directive required for municipal liability, and it is too nebulous to constitute a
moving force. The episodic acts or omissions of these
employees therefore cannot be attributed to the City.
Appellants say Minerva Perez displayed “utter
confusion” about her responsibility to monitor the jail’s
camera feeds, invoking the failure-to-train principles
articulated by City of Canton v. Harris. “Under Canton,
when a municipal entity enacts a facially valid policy
but fails to train its employees to implement it in a
constitutional manner, that failure constitutes ‘official
policy’ that can support municipal liability if it ‘amounts
to deliberate indifference.’ ” Littell v. Houston Indep.
Sch. Dist., 894 F.3d 616, 624 (5th Cir. 2018) (quoting
Canton, 489 U.S. at 388). Deliberate indifference may

App. 18
be inferred either from a pattern of constitutional violations or, absent proof of a pattern, from “showing a
single incident with proof of the possibility of recurring situations that present an obvious potential for
violation of constitutional rights.” Id. (quoting Burge
v. St. Tammany Parish, 336 F.3d 363, 373 (5th Cir.
2003)). The latter inference “is possible only in very
narrow circumstances” because we have “generally reserved the single-incident method . . . for cases in which
the policymaker provides no training whatsoever with
respect to the relevant constitutional duty, as opposed
to training that is inadequate only as to the particular
conduct that gave rise to the plaintiff ’s injury.” Id. at
625 & n.5 (quotations and citations omitted).
Appellants put forward no evidence of a pattern of
violations stemming from deficient training, so their
case depends on the single-incident method of demonstrating deliberate indifference. As we have emphasized, deliberate indifference may be inferred this way
“only in narrow and extreme circumstances,” and decisions by our court drawing the inference are rare. Littell, 894 F.3d at 627; see also Pineda v. City of Houston,
291 F.3d 325, 334–35 (5th Cir. 2002) (reiterating the
rarity of this method’s successful application). Appellants have not carried their burden here. The summary
judgment record contains no evidence of the training
that Perez did and did not receive, other than that De
Leon had trained Perez. Moreover, the record has no
evidence about the population that passes through
the City’s jail or about the jail’s operations from which
the possibility of recurring situations threatening to

App. 19
constitutional rights might be assessed. It is apparent
that this record is inadequate to support a failure-totrain theory as to Perez.
Of the jailers, Esteban Garza and Coronado, Appellants note their preoccupation on February 19 with
installing signs in the jail, to the detriment of their job
duties, and they attribute the jailers’ distraction to the
directive from De Leon to install the signs. It is true
that a decision to adopt “a course of action tailored to
a particular situation” by a municipal government’s
authorized decisionmaker may constitute an official
policy. Pembaur, 475 U.S. at 483. But municipal liability arises only where the “deliberate choice to follow a
course of action is made from among various alternatives by the official or officials responsible for establishing final policy with respect to the subject matter in
question.” Id. at 483–84 (emphasis added). Nothing in
the record indicates that De Leon was aware of Garza’s
presence at the jail, much less that he instructed the
jailers to disregard Garza in favor of installing the
signs. It thus cannot be said that De Leon’s directive
was deliberate in the sense meant by Pembaur or that
it was tailored to the particular situation of Garza’s
confinement. Consequently, it is apparent that the record cannot support municipal liability on this basis.
In sum, whatever we may think of the various
DPD employees’ actions on February 19, 2016, Appellants have not set forth evidence by which those actions might reasonably be attributed to the City.
Accordingly, the City is entitled to judgment as a matter of law, making the district court’s grant of summary

App. 20
judgment to the City the correct outcome on this record.
IV
For the foregoing reasons, we AFFIRM.

App. 21
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
MCALLEN DIVISION
JOSE LUIS GARZA,
et al,
Plaintiffs,
VS.
CITY OF DONNA,
Defendant.

§
§
§
§
§
§
§

CIVIL ACTION
NO. 7:16-CV-00558

OPINION
(Filed Dec. 15, 2017)
The Court now considers the City of Donna’s (“Defendant”) motion for summary judgment1 and motion
to disqualify and preclude the testimony of Mr. Donald
L. Leach, II (“Leach”).2 The Court also considers the responses filed by Jose and Veronica Garza, individually
and as representatives of the estate of Jose Garza, Jr.
(“Deceased”), as well as Cynthia Lopez as next friend
of J.R.G., Deceased’s minor son (collectively “Plaintiffs”).3 After duly considering the record and relevant
authorities, the Court GRANTS Defendant’s motion
for summary judgment, and DENIES AS MOOT Defendant’s motion to disqualify and preclude Leach’s
testimony.

1
2
3

Dkt. No. 33.
Dkt. No. 34.
Dkt. Nos. 35 & 36.

App. 22
I.

BACKGROUND
A. Factual Background

This case tragically arises because Decedent committed suicide while in the City of Donna Jail (“Jail”).4
Plaintiffs allege that Decedent “ha[d] a long history of
substance abuse involving both alcohol and licit and
illicit drugs,” including cocaine, dating back to when
Decedent was fourteen years old.5 Plaintiffs further allege that Decedent’s substance abuse “led to numerous
arrests on drug and alcohol-related charges.”6
On at least three to four previous occasions,7 Decedent was “argumentative towards his family members when intoxicated . . . such that he presented a
threat of harming both himself and others.”8 As a result, Plaintiffs allege that they “telephoned Defendant’s City of Donna Police Department [(“Police”)], and
requested that Decedent be kept in a safe environment
to ‘dry out’, i.e. placed in protective custody until the
intoxication had worn off.”9 Plaintiffs further allege
that the Police would honor these requests, and “would
release Decedent from protective custody when [Decedent] sobered up, without filing any charges against
4

Dkt. No. 10 p. 1 (the facts herein are presented from Plaintiffs’ complaint, or in the light most favorable to Plaintiffs’ complaint).
5
Dkt. No. 10 ¶ 7.
6
Id.
7
Id. ¶ 8.
8
Id.
9
Id.

App. 23
him.”10 Notably, the Jail was and is a short-term holding facility, where detainees are only held until they
can be taken before a magistrate for arraignment.11
The Chief of Police Ruben De Leon (“Ruben”) indicates
that “we’re really shooting at six hours or less.”12
Early in the morning on February 19, 2016, Decedent was again intoxicated and became argumentative
with his brother Gilbert and his mother Veronica Garza
(“Veronica”).13 Veronica was afraid Decedent would try
to fight Gilbert, and thus, was afraid for both Decedent’s and Gilbert’s safety.14 She phoned the Police for
help15 specifically because Decedent “was not behaving.”16
Officer Mario Silva (“Silva”) was dispatched at approximately 5:35 a.m.,17 and arrived at Veronica’s residence
at approximately 5:40 a.m.18 Eventually, two other officers arrived to assist Silva: Sergeant Esmerelda Estrada
(“Estrada”)19 and Officer Jacob Cepeda (“Cepeda”).20

10

Id.
Dkt. No. 35-4 pp. 35.
12
Id. p. 36.
13
Dkt. No. 35-3 pp. 10-11.
14
Id. pp. 15-16, 20, 22.
15
Id. pp. 20-21.
16
Id. p. 10.
17
Dkt. No. 35-8 p. 18.
18
Dkt. No. 35-3 p. 23 (indicating officers arrived approximately
five minutes after Veronica called them).
19
Dkt. No. 35-8 p. 83.
20
Id. p. 84.
11

App. 24
Silva observed Decedent’s bloodshot eyes, slurred speech,
lack of balance, and alcoholic odor.21
At some point in time, Veronica claims to have told
Silva and Estrada that she believed Decedent might
hurt himself.22 Veronica might have also told a male officer that she “feared for [Decedent’s] life,” although it
is not clear from the wording and context of this statement whether it was actually spoken, or simply how
Veronica felt.23 However, Veronica’s deposition reveals
that she is not aware Decedent ever told anybody that
he might commit suicide.24
Ultimately, Silva arrested Decedent for assault by
threat.25 There is no indication Estrada or Cepeda took
part in the arrest or booking process of Decedent. Silva
testified that he believed Decedent was no longer a
danger to himself or anyone else after being arrested.26
Moreover, Silva testified that throughout the process,
Decedent was compliant and “talking to [Silva] the
entire way.”27 Decedent did not have any violent
21

Id. pp. 22-23.
Dkt. No. 35-3 pp. 35-36 (indicating Veronica was afraid Decedent might hurt himself or Gilbert specifically because he could
be violent when intoxicated); id. p. 83 (indicating Veronica expressed her concern that Decedent might hurt himself to Silva
and “the female officer”).
23
Id. p. 25 (“And then he told me, [y]ou want to press charges?
I told him, [n]o. I loved him. I loved him. I feared for his life.”).
24
Id. p. 63.
25
Dkt. No. 35-8 p. 20.
26
Id. pp. 22-23.
27
Id. pp. 42-43.
22

App. 25
outbursts28 and was eventually booked at approximately 6:05 a.m., upon arriving at the Jail.29 According
to Silva, during booking, Decedent’s demeanor was
“okay,” and they “even had a couple of laughs.”30 In any
event, there was “[n]o indication [Decedent] wanted to
harm himself.”31 Ultimately, Silva did not believe Decedent would harm himself.32
Defendant has no policy requiring suicide screenings for all pretrial detainees. Instead, Defendant requires arresting officers and Jail personnel to seek
medical or mental screening and assistance for arrestees/detainees if they see a specific need for it.33
There is no indication in the record that Silva requested mental screening for Decedent.
Instead, after booking Decedent, Silva entered the
“squad room” for approximately forty minutes (until
6:45 a.m.) to type up his report,34 and left the Jail to
go home before 7:00 a.m.35 Silva understood that
Communications Supervisor Minerva Perez (“Perez”)
would monitor Decedent in his Jail cell via video feed.36
28

Id. p. 45.
Id.
30
Id. p. 33.
31
Id.
32
Id. pp. 42-43.
33
Dkt. No. 35-4 pp. 26, 27-28, 40-41, 48-50.
34
Dkt. No. 35-8 pp. 80 & 90.
35
Id. p. 60 (indicating Silva left the Jail within one hour of
booking Decedent).
36
Id. p. 53.
29

App. 26
However, Silva—now working well past the end of
his 6:00 a.m. “graveyard” shift—did not know which
jailer(s) would oversee Decedent, and had no contact
with any jailers that morning.37 Silva states he was
careful to ensure Decedent was not harmed.38
Perez arrived at approximately 6:00 a.m. that morning, around the same time Decedent was booked. Perez’s duties included answering 911 calls,40 dispatching
police and the fire department,41 checking license
plates and confirming the existence of outstanding
warrants,42 as well as monitoring the video feed from
Jail cells.43 She was not allowed to check on detainees
in-person.44 Perez states that it was only her job to
monitor prisoners via video feed when there are no jailers on duty.45 Moreover, the layout of Perez’s office was
such that she could not take 911 calls and monitor the
video feeds at the same time.46
39

Perez states that upon arriving to work on the
morning in question, she was informed by a Mr. Jay

37
38
39
40
41
42
43
44
45
46

Id. pp. 52-53 & 36.
Id. p. 65.
Dkt. 35-9 p. 35.
Id. pp. 26-27
Id.
Id.
Id. pp. 27-28.
Id. p. 41.
Dkt. No. 35-9 p. 37.
Id. pp. 51-52 & 82.

App. 27
Rodriguez that there was a detainee in custody.47 However, Perez also states that she was not aware that the
detainee was a “mental patient,”48 that she did not
know who arrested Decedent,49 and that she was not
told any specifics about the detainee.50 Regardless,
Perez testifies that she monitored Decedent via video
feed upon arriving to work (at 6:00 a.m.) until between
7:00 a.m. and 8:00 a.m., when jailers first began arriving.51
Perez claims she was busy answering approximately twenty 911 calls that morning from between
6:00 a.m. to 9:00 a.m.52 Plaintiffs contest this figure,
suggesting it was far lower, and reference “Exhibit 25,”
which supposedly contains a photograph of a 911 call
log.53 However, there are no documents marked “Exhibit 25” in the record. Moreover, the only photograph
of a log contained in the record—marked “Exhibit
84”—contains twenty-two entries between the times
“08:09:50 a” and “08:57:31 a.”54 Even assuming only
some of these call were 911 calls, it fails to include any
call information from 6:00 a.m. to 8:09:50 a.m. Thus,
the evidence does not reasonably support Plaintiffs’

47
48
49
50
51
52
53
54

Id. p. 58.
Id. p. 31.
Id. p. 90.
Id. p. 59.
Id. p. 65.
Id. p. 50.
Dkt. No. 35 pp. 43 & 106.
See Dkt. No. 35-26.

App. 28
contention that Perez answered far fewer than twenty
calls between 6:00 a.m. and 9:00 a.m. that morning.
Regardless of the reasons, Perez testified that she
never noticed Decedent’s Jail cell camera had been obscured.55 Ultimately, after Decedent had been found
hanging, Perez called emergency medical services at
the request of a jailer.56 Perez testifies that she believes
jail deaths are “tragic,”57 that ensuring detainees are
safe is “important,”58 and that the lives of detainees are
valuable.59 However, Perez also admits that she did not
believe she could handle all the tasks assigned to her
simultaneously60 and that she may have had too much
on her plate.61
Two jailers arrived that morning at approximately
8:00 a.m.—jailers Esteban Garza (“Garza”)62 and Nathan Coronado (“Coronado”).63 Garza was the senior
jailer with eight years of experience,64 and Coronado
was a relatively new jailer. Garza notes that no detainee had ever committed suicide at the Jail during

55
56
57
58
59
60
61
62
63
64

Dkt. No. 35-9 pp. 49 & 54.
Id. p. 57.
Id. p. 101.
Id. p. 64.
Id. p. 116.
Id. pp. 101-102.
Id. p. 95.
Dkt. No. 35-10 p. 13.
Dkt. No. 35-7 p. 18.
Dkt. No. 35-10 p. 15.

App. 29
his eight-year tenure,65 and this is bolstered by Ruben’s attestation that the Jail had never previously experienced a suicide in its forty-five year history.66
Interestingly, Garza claims to have personally known
Decedent from elementary and high school,67 that he
considered Decedent a “friend,”68 and Decedent would
wash his car sometimes.69 In any event, it was official
policy for jailers to check on detainees at least once an
hour.70
Garza claims he did not know Decedent was in
custody until he checked the cells.71 Coronado learned
about the detainee from Garza.72 Garza and Coronado
claim to have made a cell check on Decedent at approximately 8:10 a.m. to assess Decedent’s well-being.73
Both Garza and Coronado testify that they saw water
on Decedent’s cell floor,74 and Coronado claims he
planned to get Decedent a mop to clean it up,75 but this
apparently never transpired. Plaintiffs sharply contest
that the 8:10 a.m. cell check ever occurred, noting that
the video footage does not support it and also that the
65
66
67
68
69
70
71
72
73
74
75

Id.
Dkt. No. 35-4 pp. 42 & 45.
Id. p. 29.
Id. p. 37.
Id.
Id. pp. 18 & 24; Dkt. No. 35-6.
Dkt. No. 35-10 p. 15.
Dkt. No. 35-7 pp. 25-26.
Dkt. No. 35-10 p. 18; Dkt. No. 35-7 p. 37.
Dkt. No. 35-10 p. 83; Dkt. No. 35-7 p. 46.
Dkt. No. 35-7 p. 47.

App. 30
8:10 a.m. cell check Jail log was back-dated.76 Regardless of whether a cell check was made, Garza acknowledges that he heard Decedent making noises in his
cell.77 Indeed, video footage reveals Decedent intermittently hitting and kicking the metal mesh screening of
his Jail cell door with the palms of his hands, and
sometimes with his feet.78
Video footage also reveals that after arriving to
work at 8:00 a.m., Garza worked on signs to mount in
the Jail.79 Coronado confirms that he also worked on
signs that morning along with Garza.80 Immigrations
and Customs Enforcement (“ICE”) agents arrived at
the Jail at 8:48 a.m. (presumably to determine the immigration status of detainees), checked the cells at 8:49
a.m., and discovered Decedent hanging in his cell at
that time.81 The booking room footage shows that upon
hearing the ICE agents’ cries, one police officer immediately entered the room containing Decedent’s Jail
cell, while another officer ran to a different area of the
booking room to grab the Jail cell keys.82 Garza and
76

Dkt. No. 35 pp. 74-75;
Id. pp. 51, 84, 86; Dkt. No. 35-10 pp. 84-88.
78
See Exhibit A-19 “Jail cell” footage. Exhibit A-19 has no
document number because it is a physical digital video disk. The
same can bee said of Exhibits A-17, 21, and 24.
79
Id. “booking room” footage; Dkt. No. 35-10 p. 111.
80
Dkt. No. 35-7 p. 52.
81
See Exhibit A-19 “booking room” footage. ICE arrival is
timestamped at “9:55.01 a.m.” and ICE agents enter the cell block
at “9:56:46 a.m.” Plaintiffs’ briefing indicates this time stamp is
one hour and seven minutes off. See Dkt. No. 35 p. 30.
82
Id. at “9:57:04 a.m.” – “9:57:11 a.m.”
77

App. 31
Coronado were both in the Jail cell room with the keys
within seven seconds of hearing the ICE agents’ cries
for help.83
Thirty-nine seconds after entering the Jail cell
room with keys, a jailer ran back into the booking
room, apparently to call for medical assistance.84 Sixteen seconds after this, jailers and ICE agents pulled
Decedent’s body into the booking room, closer to the
Jail exit.85 Jailers and ICE agents then hunched over
Decedent’s body to examine it, after which one of the
jailers used his radio to call for assistance.86
ICE agents and jailers then waited thirty seconds
for a Police officer to arrive and begin CPR.87 Ultimately, Police officer (“Suarez”) vigorously began performing CPR on Decedent’s limp, bluish-white body88
forty-six seconds after Decedent had been brought into
the booking room,89 and one minute, forty-eight seconds after ICE agents had first discovered Decedent’s
83

Id.
See id. at “9:57:50 a.m.”
85
Id. at “9:58:06 a.m.”
86
Id. at “9:58:20 a.m.”
87
Id. at “9:58:22 a.m.” (the point by which Decedent’s body
was brought into the booking room, examined, and a Police officer
had radioed for assistance) & “9:58:52 a.m.” (when Suarez arrived
and actually began CPR).
88
Dkt. No. 35-7 p. 78; Exhibit A-24 (cell phone footage of Suarez performing CPR on Decedent in the booking room).
89
See Exhibit A-19 “booking room” footage at “9:58:06 a.m.”
(Decedent’s body brought into the booking room) & “9:58:52 a.m.”
(Suarez begins CPR on Decedent’s body).
84

App. 32
body in the Jail cell.90 Garza was in “shock” at the site
of his friend’s limp body,91 and the other jailers and ICE
agents did not perform CPR on Decedent’s body during
the thirty-second interval between (1) bringing Decedent’s body into the booking room, briefly examining
his body, and radioing for assistance, and (2) the time
Suarez arrived and began performing CPR. Cell phone
footage shows that after Suarez started performing
CPR, Police officers earnestly and continuously applied
CPR to Decedent’s body until it was taken away by
medical professionals.92 There is no evidence that Decedent was alive during any of this time.
Evidently, Decedent had successfully covered the
camera lens in his cell with wet paper towels by 8:30
a.m.93 and hung himself on his Jail cell door with his
shirt94 sometime between 8:30 a.m. and 8:49 a.m.
(when he was discovered by ICE agents). Medical professionals—who were stationed next door to the Jail—
transported Decedent to Knapp Medical Center where
he was “pronounced dead at 9:12 a.m.”95 An autopsy
was conducted at 2:35 p.m. that afternoon, which concluded that the cause of death was “asphyxia by

90

Id. at “9:57:04 a.m.” (ICE agents call out to Police officers
concerning Decedent’s hanging body”) & “9:58:52 a.m.” (Suarez
begins CPR on Decedent’s body).
91
Dkt. No. 35-10 p. 37.
92
See generally Exhibit A-24.
93
See Exhibit A-19 “Jail cell” footage at “8:30:50 a.m.”
94
See Dkt. No. 10 ¶ 16 (Plaintiffs’ first amended complaint).
95
Id.

App. 33
hanging.”96 The autopsy report also indicated the presence of “ethanol” and “Alprazolam” in Decedent’s body,97
but does not indicate the time of death.
B. Procedural Background
Plaintiffs sued Defendant in federal court on September 15, 2016,98 claiming violations of the Fifth and
Fourteenth Amendments via 42 U.S.C. § 1983,99 the
Fourth Amendment,100 and Title II § 12132 of the
ADA101 resulting in wrongful death.102 Defendant filed
its Rule 12(b)(6) motion to dismiss all of Plaintiffs’
claims except wrongful death.103 Plaintiffs responded
to the motion to dismiss, but also amended their complaint as a matter of course on October 28, 2016,104 vitiating Defendant’s Rule 12(b)(6) dismissal motion.105

96

Dkt. No. 35-2 p. 5.
Id.
98
Dkt. No. 1.
99
Id. ¶ 16.
100
Id. ¶ 24.
101
Id. ¶ 18.
102
Id. ¶ 39.
103
Dkt. No. 7 ¶¶ 1.01 & 1.02. In particular, Defendant argued that Plaintiffs’ complaint failed to support any Constitutional claims against Defendant via 42 U.S.C. § 1983 because
Plaintiffs failed to “identif[y] any facts that would establish a custom or practice of the City to violate their federal rights,” which
in turn could circumvent Defendant’s Eleventh Amendment sovereign immunity. See id. ¶ 1.01.
104
Dkt. No. 10.
105
Dkt. No. 12.
97

App. 34
Defendant subsequently filed another Rule 12(b)(6)
dismissal motion on November 7, 2016,106 requesting
only dismissal of Plaintiffs’ Fourth Amendment and
ADA claims.107 Defendant did not request dismissal of
Plaintiffs’ Fifth and Fourteenth Amendment claims.108
Ultimately, the Court granted Defendant’s dismissal
motion.109 Defendant thereafter filed the instant motion for summary judgment with regard to Plaintiffs’
remaining Fifth and Fourteenth Amendment claims.110
Defendant also filed a motion to disqualify and preclude the testimony of Leach—Plaintiffs’ expert.111 Plaintiffs responded to both motions, which are ripe for
review. The Court now turns to its analysis.
II.

LEGAL STANDARD

Under Federal Rule of Civil Procedure 56, summary judgment is proper when there is “no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.”112 “A fact is ‘material’ if its resolution could affect the outcome of the
action,”113 while a “genuine” dispute is present “only if
106

Dkt. No. 13.
Id. ¶ 3.18.
108
Id. ¶ 1.01.
109
Dkt. No. 28.
110
Dkt. No. 33.
111
Dkt. No. 34.
112
Fed. R. Civ. P. 56(a).
113
Burrell v. Dr. Pepper/Seven UP Bottling Grp., Inc., 482
F.3d 408, 411 (5th Cir. 2007) (internal quotation marks and citation omitted).
107

App. 35
a reasonable jury could return a verdict for the nonmovant.”114 As a result, “[o]nly disputes over facts that
might affect the outcome of the suit under the governing law will properly preclude the entry of summary
judgment.”115
In a motion for summary judgment, the movant
bears the initial burden of showing the absence of a
genuine issue of material fact.116 In this showing, “bald
assertions of ultimate facts” are insufficient.117 Absent
a sufficient showing, summary judgment is not warranted, the analysis is ended, and the non-movant
need not defend the motion.118 On the other hand, the
movant is freed from this initial burden on matters
for which the non-movant would bear the burden of
proof at trial; in that event, the movant’s burden is
reduced to merely pointing to the absence of evidence.119 The non-movant must then demonstrate the
existence of a genuine issue of material fact.120 This
demonstration must specifically indicate facts and

114

Fordoche, Inc. v. Texaco, Inc., 463 F.3d 388, 392 (5th Cir.
2006) (citation omitted).
115
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
116
See Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).
117
Gossett v. Du-Ra-Kel Corp., 569 F.2d 869, 872 (5th Cir.
1978) (citation omitted).
118
See Celotex Corp., 477 U.S. at 323.
119
See id. at 323-25; see also Transamerica Ins. Co. v.
Avenell, 66 F.3d 715, 718-19 (5th Cir. 1995).
120
See Celotex Corp., 477 U.S. at 323.

App. 36
their significance,121 and cannot consist solely of “[c]onclusional allegations and denials, speculation, improbable inferences, unsubstantiated assertions, and legalistic
argumentation[.]”122
In conducting its analysis, the Court considers evidence from the entire record and views that evidence
in the light most favorable to the non-movant.123 However, rather than combing through the record on its
own, the Court looks to the motion for summary judgment and response to present the evidence for consideration.124 Parties may cite to any part of the record, or
bring evidence in the motion and response.125 By either
method, parties need not proffer evidence in a form admissible at trial,126 but must proffer evidence substantively admissible at trial.127

121

See Ragas v. Tenn. Gas Pipeline Co., 136 F.3d 455, 458
(5th Cir. 1998).
122
U.S. ex rel. Farmer v. City of Hous., 523 F.3d 333, 337 (5th
Cir. 2008) (citing TIG Ins. Co. v. Sedgwick James of Wash., 276
F.3d 754, 759 (5th Cir. 2002)).
123
See Moore v. Willis Indep. Sch. Dist., 233 F.3d 871, 874
(5th Cir. 2000) (citations omitted).
124
See Fed. R. Civ. P. 56(e).
125
See Fed. R. Civ. P. 56(c).
126
See Celotex Corp., 477 U.S. at 324 (“We do not mean that
the nonmoving party must produce evidence in a form that would
be admissible at trial in order to avoid summary judgment.”).
127
See Bellard v. Gautreaux, 675 F.3d 454, 460 (5th Cir.
2012) (“[T]he evidence proffered by the plaintiff to satisfy his burden of proof must be competent and admissible at trial.”).

App. 37
III. ANALYSIS
Defendant has moved for summary judgement on
Plaintiffs’ remaining claims: (A) Fifth Amendment Due
Process and (B) Fourteenth Amendment Due Process.
Defendant also specifically seeks summary judgment
on Plaintiffs’ wrongful death claim pursuant to the
Texas Tort Claims Act. However, Plaintiffs make clear
that they are not pursuing a Texas Tort Claims Act
claim but rather, seek damages for the wrongful death
resulting from the violations of Decedent’s constitutional rights. The Court finds this to be the case, and
thus only addresses the Due Process and Fourteenth
Amendment alleged violations.
A. Fifth Amendment Due Process
Fifth Amendment Due Process claims are “cognizable only against a federal government actor,” and
thus are categorically inapplicable to municipal and
state actors.128 Plaintiffs’ claims are only aimed at municipal actors and derivatively at Defendant. Thus,
Plaintiffs’ Fifth Amendment Due Process claim129 necessarily fails, and Defendant’s motion for summary
judgment is GRANTED with regard to this claim.

128

Wheat v. Mass, 994 F.2d 273, 276 (5th Cir. 1993); see also
Blackburn v. City of Marshall, 42 F.3d 925, 930 n.3 (5th Cir. 1995)
(“Blackburn also alleges that Defendants’ actions violated the
Fifth Amendment. Because the due process component of the
Fifth Amendment applies only to federal actors, we will analyze
Blackburn’s claim under the Fourteenth Amendment.”).
129
Dkt. No. 10 ¶ 25.

App. 38
B. Fourteenth Amendment Due Process
i. legal standard
The Fourteenth Amendment states:
No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.130
Importantly, the Fourteenth Amendment only applies directly against states, not municipalities—such
as Defendant. However, Congress remedied this gap by
enacting 42 U.S.C.A. § 1983,131 which effectively permits Fourteenth Amendment claims to proceed against
municipalities under certain circumstances.132 Thus,
Plaintiffs have employed the proper procedural vehicle
for bringing their Fourteenth Amendment Due Process
claim against Defendant—§ 1983.133
The Fifth Circuit has specifically held that a “pretrial detainee . . . ha[s] a clearly established [Fourteenth Amendment Due Process] . . . right not to be
denied, by deliberate indifference, attention to his

130

U.S. CONST. amend XIV, § 1 (emphasis added).
42 U.S.C.A. § 1983 (West).
132
See Monell v. Dep’t of Soc. Servs. of City of N.Y., 436 U.S.
658, 689-90 (1978) (providing that municipalities constitute “persons” within the meaning of 42 U.S.C.A. § 1983”).
133
Dkt. No. 10 p. 9.
131

App. 39
serious medical needs.”134 This includes “protection
from known suicidal tendencies,”135 the ostensible basis for the majority of Plaintiffs’ complaints against
Defendant. Although this right, as applied to convicted
prisoners, is based on the Eighth Amendment, “state
and municipal detainees are accorded at least as much
protection under the due process clause of the [F]ourteenth [A]mendment.”136
Pretrial-detainee Fourteenth Amendment claims
may be analyzed two different ways, depending upon
the underlying allegations. First, and most often, if the
harm in question results from “a particular act or omission of one or more officials, the action is characterized
as an ‘episodic act or omission’ case.”137 In such cases,
“an actor is usually interposed between the detainee
and the municipality, such that the detainee complains
first of a particular act of, or omission by, the actor and
then points derivatively to a policy, custom or rule (or
lack thereof ) of the municipality that permitted or
caused the act or omission.”138 The legal analysis is
two-fold: “the plaintiff must demonstrate: (1) that the
municipal employee violated [the pretrial detainee’s]
134

Estate of Pollard v. Hood Cty., Tex., 579 Fed. Appx. 260,
265 (5th Cir. 2014).
135
Id. (emphasis added) (citing Flores v. Cty. of Hardeman,
Tex., 124 F.3d 736, 738 (5th Cir.1997).
136
Burns v. City of Galveston, Tex., 905 F.2d 100, 103 (5th
Cir. 1990) (citing Bell v. Wolfish, 441 U.S. 520 (1979)); Revere v.
Mass. Gen. Hosp., 463 U.S. 239 (1983).
137
Flores, 124 F.3d at 738.
138
Id.

App. 40
clearly established constitutional rights with subjective deliberate indifference; and (2) that this violation
resulted from a municipal policy or custom adopted
and maintained with objective deliberate indifference.”139
To demonstrate subjective deliberate indifference
under the first prong, “the plaintiff must show that
the municipal employee knew of and disregarded an
excessive risk to the detainee’s health or safety.”140
Specifically in the pretrial-detainee-suicide context, “a
plaintiff must show that public officers were [1] aware
of facts from which an inference of a substantial risk
of serious harm to an individual could be drawn;141
[2] that they actually drew the inference; and [3] that
their response indicates subjective intention that the
harm occur.”142 Evidence of negligence, or even gross
negligence, is not enough.143 The Fifth Circuit has

139

Brumfield v. Hollins, 551 F.3d 322, 331 (5th Cir. 2008);
see also Sanchez v. Young Cty., Tex., 866 F.3d 274, 280-88 (5th
Cir. 2017) (indicating that subjective and deliberate indifference
of specific employee(s) must be found even in cases solely against
a municipality).
140
Brumfield, 551 F.3d at 331.
141
See Hyatt v. Thomas, 843 F.3d 172, 178 (5th Cir. 2016)
(indicating with regard to this first requirement, “[w]hether a
prison official had the requisite knowledge of a substantial risk is
a question of fact subject to demonstration in the usual ways, including inference from circumstantial evidence.”).
142
Sanchez, 866 F.3d at 280; Estate of Allison v. Wansley, 524
Fed. Appx. 963, 970 (5th Cir. 2013).
143
Sanchez, 866 F.3d at 280.

App. 41
explained that subjective deliberate indifference “is an
extremely high standard to meet.”144
The second prong—objective deliberate indifference of the municipality—has been summed up thus:
A city acts with objective deliberate indifference “if it
promulgates (or fails to promulgate) a policy or custom
despite the known or obvious consequences that the
constitutional violations would result.”145 Moreover,
the Fifth Circuit has stated that a plaintiff must establish: “(1) an official policy (or custom), of which (2) a
policymaker can be charged with actual or constructive knowledge, and (3) a constitutional violation
whose ‘moving force’ is that policy or custom.”146
Second, a condition-of-confinement claim is “a constitutional attack on the general conditions, practices,
rules, or restrictions of pretrial confinement.”147 Examples include complaints about the number of bunks in
one’s cell, one’s mail privileges, the inability to bathe
for two months at a time, and exposure to high levels
of cancer-causing radioactivity.148 In these cases, it is
assumed the deprivation imposed by the policy was intentional, and “a constitutional violation exists only if
we then find that the condition of confinement is not
144

Id.
Anderson v. Dallas County Texas, 286 Fed. Appx. 850, 861
(5th Cir. 2008).
146
Fuentes v. Nueces Cty., Tex., 689 Fed. Appx. 775, 777 (5th
Cir. 2017).
147
Id.
148
See id. (citing cases).
145

App. 42
reasonably related to a legitimate, non-punitive government objective.”149
The Court begins by discussing Plaintiffs’ episodic
act or omission theory of liability, and then turns to
Plaintiffs’ condition-of-confinement theory.
ii. Analysis—episodic acts or omissions before Decedent was found
hanging in his cell
Neither party disputes, and both parties assume,
that the present case at least arises from episodic acts
or omissions by Defendant’s employees.150 Defendant’s
chief argument on this front is that there is insufficient
evidence to prove any of its employees acted with subjective and deliberate indifference to any suicidal
tendencies Decedent may have displayed.151 The Court
proceeds to discuss each of these employees in turn.
a. Mario Silva—arresting officer
No fact finder could reasonably infer from the
available evidence that Silva was subjectively and deliberately indifferent to a known risk that Decedent
would commit suicide. As noted, Veronica stated in her
deposition that she told the police she was “afraid of

149

Scott v. Moore, 114 F.3d 51, 53 (5th Cir. 1997)
Plaintiffs also attempt to employ the conditions-of-confinement
theory, which the Court will address in turn.
151
Dkt. No. 33 ¶¶ 3.21-3.28.
150

App. 43
[Decedent] hurting himself.”152 She also testified that
she “feared for [Decedent’s] life,”153 although it is not
clear if she ever communicated this specifically to
Silva.
However, there is no evidence that Veronica explained to Silva why she believed Decedent might hurt
himself. Furthermore, there is no evidence Decedent
had ever expressed an intent to harm or kill himself,154
or that Decedent had either specifically expressed an
intent or actually tried to hurt himself during any of
his three to four155 previous stays in the Jail. Thus,
even assuming Veronica told Silva that she was afraid
for Decedent’s life, this statement was altogether inexplicable, without any accompanying rationale or justification.
To the contrary, Silva’s deposition indicates that
during the arrest and booking process, Decedent’s demeanor was “okay,”156 and that he was compliant, “talking to me the whole way.”157 Decedent did not make any
outbursts and the two “even had a couple of laughs”
while in booking.158 According to Silva, Decedent gave
“no indication he wanted to harm himself,”159 and thus,
152
153
154
155
156
157
158
159

Dkt. No. 35-3 p. 33.
Id. p. 35.
See id. p. 63.
Id. p. 35.
Dkt. No. 35-8 p. 33.
Id. pp. 42-43.
Id. p. 33.
Id. pp. 42-43.

App. 44
Silva did not believe Decedent would hurt himself.160
On the whole, the evidence suggests Silva was—subjectively speaking—focused on detaining a rowdy and
potentially violent intoxicated person,161 rather than
saving a suicide-prone subject. Plaintiffs contest that
the “couple of laughs” remark should be ignored on the
basis of spoliation because the booking room footage
that could have proven or disproven it has been intentionally destroyed.162 Even disregarding this portion of
Silva’s testimony, no reasonable fact finder could conclude Silva was subjectively and deliberately indifferent to any obvious suicidal tendencies.163
In sum, it is not possible to infer from the available
evidence that Silva was subjectively aware of “a substantial risk of serious harm” to Decedent,164 or that
Silva actually drew an inference that Decedent would
kill himself. Silva specifically stated that he did not
draw any such inference.165 Finally, Silva’s response
(taking no special action to prevent Decedent from
160

Id. p. 63; Dkt. No. 33-1 pp. 31-32.
See e.g., Dkt. No. 35-3 p. 10 (Veronica called Dona Police
specifically because “[m]y son was not behaving—he got argumental (sic) with my son Gilbert”); Dkt. No. 35-8 pp. 19-20 (charging Decedent with assault by threat, and stating this was the only
reason he arrested Decedent); id. pp. 21-22 (finding Decedent was
argumentative and threatening); id. (Silva was aware Decedent
was intoxicated with alcohol).
162
See Dkt. No. 35 pp. 109,
163
See Whitt v. Stephens Cty., 529 F.3d 278, 284 (5th Cir.
2008).
164
Hyatt v. Thomas, 843 F.3d 172, 178 (5th Cir. 2016).
165
Dkt. No. 33-1 pp. 31-32.
161

App. 45
committing suicide) does not indicate a “subjective intention that the [suicide] occur.”166 No fact finder could
reasonably infer that Silva’s course of conduct was motivated by an intent that Decedent kill himself. Thus,
Silva was not subjectively and deliberately indifferent.
Plaintiffs cite a Fifth Circuit case—Hyatt v.
Thomas167—and contend that Silva could be subjectively and deliberately indifferent even though nothing
particular about Decedent’s behavior suggested he
would commit suicide.168 Indeed, the Hyatt Court
found the defendant was subjectively aware of a substantial risk that the decedent would commit suicide
even though he indicated he did not want to commit
suicide that day and otherwise appeared to be in a good
mood.169 However, that case is factually distinguishable because the defendant was: (1) apprised by decedent’s spouse that decedent was suicidal, (2) aware the
decedent had previously attempted suicide (including
two months prior), and (3) the decedent specifically
told the defendant that he was “very depressed.”170
These important factors are absent from the present
case, and thus Hyatt is inapplicable.

166

Sanchez v. Young Cty, Tex., 866 F.3d 274, 280 (5th Cir.
2017); Estate of Allison v. Wansley, 524 Fed. Appx. 963, 970 (5th
Cir. 2013).
167
843 F.3d at 178.
168
Dkt. No. 35 p. 71.
169
Hyatt, 843 F.3d at 178.
170
Id. pp. 175-176.

App. 46
Plaintiffs cite another Fifth Circuit case which is
also distinguishable: Partridge v. Two Unknown Police
Officers Of Houston.171 Partridge was published in
1986—ten years before the Fifth Circuit’s ruling in
Hare172 crystalized the current two-step § 1983, Fourteenth Amendment Due Process analysis,173 which provides that a municipality cannot be liable absent proof
that particular municipal actors were subjectively and
deliberately indifferent (in the episodic act or omission
context). Thus, the Partridge Court did not analyze
whether any particular municipal actor acted with
subjective and deliberate indifference, instead focusing
exclusively on the second step in today’s analysis—objective and deliberate indifference of the municipality.174 Thus, it is not possible to extract from Partridge
what facts might be sufficient to establish subjective
and deliberate indifference of a particular municipal
actor.
Even so, the decedent in Partridge was more obviously suicidal to observing municipal actors than
Decedent was in the present case. In particular, the
Partridge decedent: (1) exuded a fragile emotional

171
172

791 F.2d 1182, 1184 (5th Cir. 1986).
Hare v. City of Corinth, Miss., 74 F.3d at 647 (5th Cir.

1996).
173

The Court notes, however, that the basis for the first step
of the analysis—subjective deliberate indifference of particular
municipal officers—was developed by the Supreme Court as early
as 1977 in Farmer v. Brennan, 511 U.S. 825, 833 (1994).
174
Partridge v. Two Unknown Police Officers of City of
Houst., Tex., 791 F.2d 1182, 1188-89 (5th Cir. 1986).

App. 47
disposition and was hysterical towards police;175 (2) carried mental and medical bracelets and cards such
that officers knew he required additional medical supervision;176 (3) became agitated and violent, kicking
against the windows and door inside the police vehicle;177 (4) intentionally struck his head against the
plexi-glass divider in the police vehicle;178 (5) required
a two-man back-up unit to subdue and contain;179
(6) was known by the police department generally as a
mental patient;180 (7) decedent’s father told police that
the decedent had previously suffered a nervous breakdown;181 and (8) although the booking agents specifically were not aware, the decedent had previously
attempted suicide during an earlier confinement.182
None of these weighty factors are present here, and
thus, Partridge is inapplicable.
b.

Esmerelda Estrada—sergeant on duty

If a lack of evidence dooms any allegation against
Silva, then the same must be true of Estrada—there is
even less evidence concerning her knowledge of or interactions with Decedent. The evidence indicates that
175
176
177
178
179
180
181
182

Id. p. 1184.
Id.
Id.
Id.
Id.
Id. at 1184.
Id.
Id.

App. 48
Estrada arrived at Decedent’s residence one minute after Silva did.183 Silva did not need authorization from
Estrada to arrest Decedent, so it appears Estrada
showed up largely to assist Silva.184 Veronica testifies
that she told “the female officer”—Estrada—that she
was afraid Decedent might hurt himself.185 Unlike
Silva, however, there is no evidence Veronica told Estrada that she was afraid for Decedent’s life.186 The record is otherwise silent with regard to Estrada’s role.
The Court cannot reasonably infer from this scant
evidence that Estrada acted with subjective and deliberate indifference towards a known, substantial risk
that Decedent would commit suicide. As already noted
with regard to Silva, Estrada could not reasonably infer that Decedent would kill himself based solely upon
Veronica’s statement that she was afraid Decedent
might harm himself.187 “Harm” and “kill” are two different things. Moreover, there is no evidence that Veronica explained why she believed Decedent might
harm himself. Under the circumstances, even assuming Estrada ignored Veronica’s concern, a fact finder
could not reasonably infer from the available evidence
183

Dkt. No. 35-8 pp. 40-41.
Id. p. 40 (indicating Silva did not need authorization to
arrest Decedent).
185
Dkt. No. 35-3 p. 83.
186
Id. p. 25 (Veronica potentially made this statement to a
male officer: “And then he told me, [y]ou want to press charges? I
told him, [n]o. I loved him. I loved him. I feared for his life.”) (emphasis added).
187
See Hyatt v. Thomas, 843 F.3d 172, 178 (5th Cir. 2016).
184

App. 49
that this response indicates a subjective intention that
Decedent commit suicide.188 Importantly, Silva had
custody of and booked Decedent, and there is no evidence Estrada was involved in this process. Thus, Estrada was not subjectively and deliberately indifferent.
At this juncture, the Court observes that there is
no evidence that Silva or Estrada told anybody else
about Veronica’s statement that she was afraid Decedent might hurt himself. In fact, the evidence affirmatively suggests that they did not.189 This is important
because it is one less thing subjectively engrained in
other employees’ minds from which the Court might
infer those other employees were subjectively and
deliberately indifferent towards Decedent’s constitutional rights.
c.

Esteban Garza—jailer

No fact finder could reasonably infer from the evidence that Garza was subjectively and deliberately indifferent to a known, substantial risk that Decedent
would commit suicide. As noted, Garza showed up to
188

Sanchez v. Young Cty., Tex., 866 F.3d 274, 280 (5th Cir.
2017); Estate of Allison v. Wansley, 524 Fed. Appx. 963, 970 (5th
Cir. 2013).
189
See Dkt. No. 35-8 p. 89 (indicating Silva had no contact
with any Donna jailers); id. p. 52 (Silva did not leave any information about Decedent’s mental state in electronic database—
“RFS”—from which other employee’s might draw an inference
that Decedent was suicidal); id. pp. 52-53 (Silva did not know who
was in charge of Decedent after Silva left within an hour after
booking Decedent).

App. 50
work on the morning in question at 8:00 a.m.,190 approximately two hours after Decedent was booked and
at least one hour after Silva, the arresting officer, had
left the Jail because his shift was over.191 Nobody informed Garza that Decedent was in custody, and Garza
states that he only discovered Decedent by looking in
the cells himself.192 Garza also states that he knew Decedent from elementary and high school,193 that they
would meet at the carwash sometimes,194 and that he
considered Decedent a “friend.”195 There is no evidence
Garza knew Veronica was concerned for Decedent’s
safety.
Garza claims he performed a cell check on Decedent at 8:10 a.m.196 Plaintiffs hotly contest this fact.
Even assuming no cell check was made, Garza did hear
Decedent making noises in his cell, but did not know
exactly what the noises were.197 Video footage shows
Decedent intermittently hitting and kicking the metal
mesh screening of his Jail cell door.198 Footage also
shows that after arriving to work at 8:00 a.m., Garza
was working on signs to mount in the jail.199 ICE
190
191
192
193
194
195
196
197
198
199

Dkt. No. 35-10 p. 13.
Dkt. No. 35-8 p. 60.
Dkt. No. 35-10 p. 15.
Id. p. 29.
Id. p. 37.
Id.
Id. pp. 30.
Id. pp. 84 & 86.
See Exhibit A-19 “Jail cell” footage.
Id. “booking room” footage; Dkt. No. 35-10 p. 111.

App. 51
agents arrived at the Jail at 8:48 a.m., checked the cells
at 8:49 a.m., and discovered Decedent hanging in his
cell.200
Notably lacking is any evidence that Garza was
subjectively aware of facts from which he could reasonably infer a substantial risk that Decedent was about
to kill himself.201 There is no evidence suggesting
Garza even knew anyone was in the cell until he supposedly made a cell check at 8:10 a.m. Assuming the
cell check did not occur, as Plaintiffs contend, then it
suggests Garza had no basis for believing Decedent
was suicidal, except for Decedent’s noise-making. However, the mere fact Decedent was intermittently hitting
the metal mesh of his cell door is not an obvious sign
that he was about to kill himself—as opposed to simply
being angry, intoxicated, bored, trying to get attention,
or some combination of these or other issues.
For these reasons, no reasonable inference can be
made that Garza was subjectively aware Decedent was
likely to kill himself absent intervention.202 There is
also no evidence that Garza’s failure to intercede was
motivated by a “subjective intention that the [suicide]

200

See Exhibit A-19 “booking room” footage. ICE arrival is
timestamped at “9:55.01 a.m.” and ICE agents enter the cell block
at “9:56:46 a.m.” Plaintiffs’ briefing indicates this time stamp is
one hour and seven minutes off. See Dkt. No. 35 p. 30.
201
See Hyatt v. Thomas, 843 F.3d 172, 178 (5th Cir. 2016).
202
Sanchez v. Young Cty., Tex., 866 F.3d 274, 280 (5th Cir.
2017); Estate of Allison v. Wansley, 524 Fed. Appx. 963, 970 (5th
Cir. 2013).

App. 52
occur,”203 as opposed to negligence, laziness, distraction
via making signs, or even over-familiarity with noisy
detainees. In sum, a fact finder could not reasonably
infer from the evidence that Garza was subjectively
and deliberately indifferent to a known, substantial
risk that Decedent would commit suicide.
d. Nathan Coronado—jailer
Plaintiffs do not expressly contend that Coronado,
a jailer-in-training, was subjectively and deliberately
indifferent.204 For purposes of thoroughness, however,
the Court will address Coronado’s role. Coronado arrived at the Jail at about 8:00 a.m.—the same time as
Garza.205 There is no evidence Coronado knew about
Veronica’s concern for Decedent’s safety. Like Garza,
Coronado states that he and Garza checked on Decedent,206 and specifically that he saw some water on the
floor, was going to get a mop for Decedent to wipe up
the water,207 but that he never got the mop.
Coronado also states that he could generally tell if
a detainee needed extra supervision because those detainees would expressly state that they might hurt

203

See id.
See Dkt. No. 35 pp. 71-77 (specifically listing the employees Plaintiffs believe were subjectively and deliberately indifferent. None of which includes Coronado).
205
Dkt. No. 35-7 p. 18.
206
Id. p. 37.
207
Id. p. 47.
204

App. 53
themselves.208 Coronado attests that previous detainees had specifically stated their intent to harm themselves.209 There is no evidence that Decedent expressed
to Coronado any intent to harm himself, and Coronado’s observation of Decedent was that he was “reasonable” but “hyper.”210 In retrospect, Coronado admits
that his and Garza’s failure to more closely monitor
Decedent undermined Decedent’s safety.211 However,
there is no evidence Coronado had this conviction and
failed to act on it during the morning Decedent killed
himself.
Given the available evidence, no fact finder could
reasonably infer that Coronado was aware of facts
from which an inference of a substantial risk of suicide
could be drawn.212 No doubt, Coronado heard Decedent’s yelling and banging, but Coronado could not reasonably infer from this fact that Decedent was about
to kill himself. If Coronado made a cell check at 8:10
a.m., then Coronado also saw the water on the floor in
Decedent’s cell (suggesting Decedent’s odd behavior
that morning), as Coronado testifies he did. But this
does not meaningfully tip the scales in Plaintiffs’ favor,
as a cell check would also indicate a subjective intent
to help Decedent. If Coronado did not check Decedent’s
cell, as Plaintiffs contend, then he had no subjective
basis for believing Decedent was suicidal, knowing
208
209
210
211
212

Id. p. 61.
Id. p. 63.
Id. p. 86.
Id. p. 9.
See Hyatt v. Thomas, 843 F.3d 172, 178 (5th Cir. 2016).

App. 54
little or nothing about Decedent except that he was
noisy and rowdy.
In sum, it cannot reasonably be inferred from
the available evidence that Coronado was subjectively
aware Decedent was about to kill himself. In turn,
Coronado’s lack of special supervision or intervention
does not indicate a subjective intention that Decedent
commit suicide.213 Thus, Coronado did not act with subjective and deliberate indifference.
e.

Minerva Perez—Communications Officer

Like Coronado, Plaintiffs do not explicitly contend
that Perez was subjectively and deliberately indifferent.214 The Court nevertheless addresses Perez’s role
for the sake of thoroughness. As previously noted, Perez fulfilled multiple duties, including answering 911
calls,215 dispatching police officers and the fire department where they were needed,216 as well as monitoring
the video feed from the Jail cells217 (which is no small
task given the sixteen different video feeds).218 However, Perez believed that her duty to monitor detainees
213

Sanchez v. Young Cty., Tex., 866 F.3d 274, 280 (5th Cir.
2017); Estate of Allison v. Wansley, 524 Fed. Appx. 963, 970 (5th
Cir. 2013).
214
See Dkt. No. 35 pp. 71-77 (specifically listing the employees Plaintiffs believe were subjectively and deliberately indifferent, none of which includes Coronado).
215
Dkt. No. 35-9 pp. 26-27.
216
Id.
217
Id. p. 42.
218
See Dkt. No. 35-4 p. 19.

App. 55
ended when jailers were on duty since they could
watch the detainees.219
Perez was unaware of facts from which a reasonable inference of a substantial risk of suicide could be
drawn.220 There is no evidence she knew anything
about Decedent’s mental state. She never directly interacted with Decedent, and thus he never told her he
intended to harm himself. After 8:00 a.m. (when Garza
and Coronado arrived), Perez stopped monitoring Decedent altogether, and thus could not have been subjectively aware of any risk of suicide that Decedent’s
behaviors might have projected. Because Perez was
unaware of facts from which a substantial risk of suicide could be drawn, a fact finder could not reasonably
infer that she actually drew any such inference.
Moreover, based upon the available evidence, a
fact finder could not reasonably infer that Perez’s dereliction of her duty to monitor indicated a subjective
intention that Decedent commit suicide.221 Rather, it
appears that Perez did not believe monitoring was necessary since jailers could monitor Decedent, and also
that she was busy answering 911 calls, although the
exact number of those calls is disputed. In sum, Perez
did not act with subjective and deliberate indifference.

219

Id. pp. 37 & 40.
See Hyatt v. Thomas, 843 F.3d 172, 178 (5th Cir. 2016).
221
Sanchez v. Young Cty., Tex., 866 F.3d 274, 280 (5th Cir.
2017); Estate of Allison v. Wansley, 524 Fed. Appx. 963, 970 (5th
Cir. 2013).
220

App. 56
f.

Police Chief Ruben De Leon

Ruben ordered the purchase and posting of at
least one, and possibly two signs for the Jail. The first
sign reads “Welcome to the Donna Hilton,” and it is undisputed that Ruben authorized the purchase of this
sign.222 The second sign contains a Punisher decal. Although Coronado suggests this sign was ordered at
Ruben’s request,223 Ruben himself denies this.224 Regardless, Plaintiffs contend that Ruben was deliberately indifferent to Decedent’s suicidal tendencies by
ordering the posting of (at least one) sign, thus distracting Garza and Coronado and preventing them
from intervening in Decedent’s suicide.225
No reasonable fact finder could determine that
Ruben was subjectively and deliberately indifferent towards a known, substantial risk Decedent would commit suicide. There is no evidence suggesting Ruben
even knew Decedent was being held at the Jail that
morning, or that he ordered the sign(s) to be prepared
for the Jail during the time Decedent was being held.
It is thus impossible to infer that Ruben knew of any
resulting risk to Decedent, or that Ruben intended
Decedent to kill himself as a result of the posting of
the signs. Indeed, Ruben testified that Decedent was a
“personal friend,”226 that Decedent would sometimes
222
223
224
225
226

See Dkt. No. 35-4 p. 112.
See Dkt. No. 35-7 p. 49.
Dkt. No. 35-4 p. 112.
See Dkt. No. 35 pp. 80-81.
Dkt. No. 35-4 p. 45.

App. 57
wash Ruben’s car,227 that he would give Decedent
money to buy pizza,228 and that they would converse
about Decedent’s family.229 Ruben states: “The guy was
a friend of mine, and I knew [him] for quite some time.
And it really bothered me that he took his life.”230 In
sum, Ruben was not subjectively and deliberately indifferent.
At this juncture, the Court has determined that
none of Defendant’s employees who were directly involved in the activities which took place on February
19, 2016 acted with subjective and deliberate indifference up to the point in time at which Decedent was
found hanging in his cell. However, Plaintiffs also contend that episodic acts and omissions occurred after
Decedent was found hanging in his cell which support
§ 1983 liability.231 The Court now turns to this contention.
iii. Analysis—episodic acts or omissions after finding Decedent hanging in his cell
No reasonable fact finder could conclude that Defendant’s employees were subjectively and deliberately
indifferent based upon their actions after Decedent
was discovered hanging in his cell. Plaintiffs set forth
227
228
229
230
231

Id. p. 61.
Id.
Id.
Id. p. 62.
See Dkt. No. 35 pp. 35-37 & 87-89.

App. 58
three contentions in this regard, which the Court addresses in turn.
First, Plaintiffs point out that when placing the
911 call for medical assistance, Perez mispronounced
the word “hanged,” such that it was not clear what
Decedent’s medical needs actually were.232 From this
mispronunciation, Plaintiffs infer that Perez was intoxicated,233 and the paramedics believed they had
been called for a tongue bite.234 However, if Perez’s mispronunciation was caused by intoxication, then it was
not caused by an intent that Decedent die or otherwise suffer—i.e., subjective and deliberate indifference. Thus, Perez was not subjectively and deliberately
indifferent to Decedent’s known medical needs because
she mispronounced the word “hanged.”
Second, Plaintiffs contend that Defendant’s employees did not take “any steps to perform CPR on Decedent, or otherwise render first aid.”235 This is not
entirely true. The evidence shows that two jailers entered the cell block with keys within seven seconds of
hearing from the ICE agents that Decedent hung himself.236 Thirty-nine seconds later, and presumably while
Decedent’s body was being cut down, a jailer—most
likely Coronado—reentered the booking room, possibly
232

Id. pp. 35-36.
Id.
234
See Dkt. No. 35-23 p. 6.
235
Id. p. 35.
236
Exhibit A-19 “booking room” footage at “9:57:04 a.m.” –
“9:57:11 a.m.”
233

App. 59
to request medical assistance.237 Sixteen seconds later,
Decedent’s body was brought to the booking room—
closer to the Jail exit.238 For another sixteen seconds,
ICE agents and jailers hunched over Decedent’s body
for examination, while one of those jailers spoke into
his radio, presumably to call for medical assistance.239
Suarez arrived and began CPR exactly thirty seconds
later.240 During this thirty second interval, the ICE
agents and jailers did not administer CPR.
Given the circumstances, no reasonable fact finder
could conclude that Defendant’s employees were subjectively and deliberately indifferent to Decedent’s serious medical needs by virtue of their failure to
administer CPR for thirty seconds. The events before
and after this thirty-second failure to administer CPR
do not suggest Defendant’s employees intended that
Decedent die or otherwise suffer. After being notified of
Decedent’s hanging, the jailers immediately took steps
to call for medical assistance, as well as to get Decedent’s body out of the cell and closer to the exit. Decedent’s body appeared lifeless, and it was not clear
whether he was still alive.

237

Id. at “9:57:50 a.m.” See Dkt. No. 35-7 p. 78 (indicating
Coronado called dispatch to in turn request an ambulance).
238
Id. at “9:58:06 a.m.”
239
Id. at “9:58:06 a.m.” – “9:58:22 a.m.”; Dkt. No. 35-10 p. 98
(indicating that by the time Decedent’s body was brought into the
booking room, Garza had requested emergency medical services);
Dkt. No. 35-7 pp. 77-78 (indicating Garza called dispatch who in
turn called an ambulance).
240
Exhibit A-19 “booking room” footage at “9:58:52 a.m.”

App. 60
After Suarez began CPR, another employee—
Lieutenant Rosas (“Rosas”)—241 encouraged Suarez to
“do the pressure,”242 notified Suarez that Decedent had
thrown up,243 helped Suarez place Decedent on his
side,244 assisted Suarez to clear Decedent’s mouth of
any obstructions,245 and took over CPR when Suarez
became too tired to continue.246 There was no room for
anybody else in the room to assist Suarez and Rosas.
In sum, the actions of Defendant’s employees before
and after the thirty-second failure to provide CPR suggest they were intent on helping, not hurting Decedent.
Although there is no good explanation for the jailers’ failure to administer CPR for thirty seconds (it
may have amounted to negligence), any normally functioning person, even one trained to do CPR, might have
done the same thing for thirty seconds while waiting
for somebody else to arrive and deliver CPR. There is
no evidence in the record that any jail staff had previously administered CPR on a real person and under
real circumstances. Thus, no fact finder could reasonably conclude that Defendant’s jailers were subjectively
and deliberately indifferent to Decedent’s serious medical needs.
241
242
243
244
245
246

See Dkt. No. 35-21 p. 12.
Exhibit A-24 at “31.”
Id. at “45.”
Id. at “49.
Id. at “54.”
Id. at “1:38.”

App. 61
Third, Plaintiffs contend that Defendant’s “Senior
Police Department officers” failed to cooperate with
paramedics. Video footage indicates that upon arriving, one of the emergency responders—Frank Tafolla
(“Tafolla”)—asked those in the booking room “what
happened? Did he say anything?”247 Evidently, Tafolla
was told (by other people) that he was responding to
a tongue bite, not a hanging.248 As he began asking
questions, Rosas—the person performing CPR at the
time—told Tafolla “Dude . . . put the air bag on him and
let’s go.”249 Tafolla asked how many chest compressions
had been completed,250 and Suarez responded “we’ve
done maybe about ten cycles.”251 The majority of Tafolla’s
time was spent unwrapping and preparing equipment,
as well as issuing orders. After Suarez took back over
doing CPR, he noticed that it was taking medical responders a significant amount of time to set up the defibrillator and stated: “Hey get somebody that knows
how to f***** work this thing. Plug that motherf*****
in.”252 Tafolla left with Decedent without asking any
more questions.
No fact finder could conclude from the available
evidence that any senior Police officers were subjectively and deliberately indifferent towards Decedent
by virtue of failing to cooperate with the medics. The
247
248
249
250
251
252

Id. at “2:26.”
Dkt. No. 35-23 p. 4.
Exhibit A-24 at “2:28.”
Id. at “2:50.”
Id. at “3:00.”
Id. at “4:32.”

App. 62
only evident senior Police officers in the room were
Suarez and Rosas, both of whom took turns vigorously
performing CPR on Decedent in an attempt to save
his life. Suarez was trying to hurry the medics to save
Decedent’s life. When asked how many chest compressions had been completed, Suarez gave a specific answer. From the video, the only questions senior Police
officers did not answer were “what happened? Did he
say anything?” These questions were met by Suarez
with a command to start preparing medical equipment—demonstrating Suarez’s awareness of how dire
the situation was, and his ostensible desire to maximize Decedent’s chance of living. In sum, no reasonable
fact finder could conclude from the evidence that Defendant’s employees were subjectively and deliberately
indifferent towards Decedent based upon their actions
after finding him hanging in his cell.
Even assuming the very worst of Defendant’s employees—i.e., that their actions and omissions in the
less than two minute time frame were committed with
subjective deliberate indifference, there is an independent reason liability cannot lie under § 1983. There
is no evidence that Decedent was alive when the ICE
agents found him. Indeed, Plaintiffs openly admit in
their briefing that “[i]t is simply unknown whether, at
the time of discovery of his suicide attempt, Decedent
was then deceased and/or beyond resuscitation via
prompt medical aid.”253 Upon arriving at the Jail, Tafolla
observed that Decedent was “cyanotic,” meaning blue
253

Dkt. No. 35 p. 34.

App. 63
and pale.254 Tafolla’s defibrillator indicated that Decedent was dead, and thus recommended against administering any shock.255 The subsequent autopsy did not
suggest any particular time of death.256
It is important whether Decedent was alive at the
time he was found hanging in his cell. If Decedent was
dead by this time, then from that time and moving forward, he had no constitutional right not to be denied,
by deliberate indifference, attention to his “serious
medical needs.”257 Deceased persons have no medical
needs. As a logical consequence, it is impossible for Defendant’s employees’ alleged subjective and deliberate
indifference to have had any object (i.e. such as Decedent’s medical needs or suicide risk). Thus, a lack of
proof that Decedent was alive during the relevant time
period amounts to a lack of proof that Decedent had
any predicate constitutional right, or that any such
right was violated. For all these reasons, § 1983 liability cannot lie against Defendant for its employees actions after they discovered Decedent’s hanging body.

254

Dkt. No. 35-23 p. 5.
Id. p. 8.
256
See Dkt. No. 35-2.
257
Estate of Pollard v. Hood Cty., Tex., 579 Fed. Appx. 260,
265 (5th Cir. 2014).
255

App. 64
iv. Analysis—condition-of-confinement theory
Plaintiffs argue that the present case can properly
be categorized as a condition-of-confinement action,258
which amounts to “a constitutional attack on the general conditions, practices, rules, or restrictions of
confinement.”259 In order to prevail on a conditionof-confinement theory, the claimant must establish:
(1) a rule or restriction or . . . the existence of
an identifiable intended condition or practice
. . . or that the [J]ail official’s acts or omissions
were sufficiently extended or pervasive; (2)
which was not reasonably related to a legitimate governmental objective; and (3) which
caused the violation of a detainee’s constitutional rights.260
If a claimant properly complains of a condition of confinement, “the court assumes that by the municipality’s promulgation and maintenance of the complained
of condition, the municipality intended to cause the alleged constitutional deprivation.”261 As one can imagine, this theory of liability is inherently attractive to
claimants because it ostensibly lowers their evidentiary burden as no mens rea is required.

258

See Dkt. No. 35 p. 110.
Anderson v. Dallas Cty., Tex., 286 Fed. Appx. 850, 857
(5th Cir. 2008).
260
Montano v. Orange Cty., Tex., 842 F.3d 865, 874 (5th Cir.
2016).
261
Anderson, 286 Fed. Appx. at 857.
259

App. 65
However, the Fifth Circuit “has not permitted
plaintiffs to conflate claims concerning a prison official’s act or omission with a condition-of-confinement
complaint.”262 True condition-of-confinement actions do
not “implicate the acts or omissions of individuals,” but
instead focus on the system of delivering services to
pretrial detainees.263 One particular Fifth Circuit case
is instructive. In Flores—involving a pretrial detainee
suicide—the claimant attempted to obtain relief under
both an episodic act or omission theory, as well as under a condition-of-confinement theory.264 To support the
episodic act or omission theory, the claimant pointed to
specific acts and omissions of the sheriff.265 To support
the condition-of-confinement theory, the claimant
pointed to specific policies and systemic failures, such
as: the provision of dangerous inmate supplies to detainees, inadequate suicide detection, inadequate suicide intervention, inadequate training, and inadequate
staffing.266 Nevertheless, the Flores Court held: “[I]t is
262

Id. (emphasis added).
See Estate of Henson v. Wichita Cty., Tex., 795 F.3d 456,
463 (5th Cir. 2015) (citing Shepherd v. Dallas Cty., 591 F.3d 445,
453 (5th Cir. 2009)).
264
Flores v. Cty. of Hardeman, Tex., 124 F.3d 736, 738 (5th
Cir. 1997).
265
Id.
266
See id. at 739 (“Plaintiffs’ claim that Hardeman County
has a policy or practice of inadequate suicide detection, intervention, and prevention, inadequate training and staffing, and unacceptably dangerous inmate supplies, i.e. a blanket with holes in
it, that was torn into strips and used by Flores to hang himself.”);
see also id. at 738 (“The plaintiffs here have attempted to plead
both an ‘episodic’ case (based on Ingram’s acts and omissions) and
263

App. 66
clear [in light of previous Fifth Circuit rulings] that
this is an episodic act or omission case.”267
Discussing Flores, the Fifth Circuit subsequently
explained in Anderson—another pretrial detainee suicide case—that “[w]here the sheriff ’s action [was] interposed between the county and the decedent, it was
clear that the case was one for an episodic act or omission.”268 To support its condition-of-confinement theory,
the claimant in Anderson complained of inadequate
funding of jail staff, actual inadequate staffing, inadequate monitoring of Jail operations, and inadequate
provision of medical care at the jail.269 The Anderson
claimant also submitted county and Department of Justice reports directly supporting these contentions.270
Nevertheless, the Anderson Court held that the claim
before it was one for acts and omissions, not conditions
of confinement:
The state actors were still interposed between
the detainee and the municipality, such that
the detainee complains first of a particular act
of, or omission by, the actor and then points
derivatively to a policy, custom, or rule (or lack

a ‘conditions’ case (based on training and staffing policies in Hardeman County”).
267
Id. at 738.
268
Anderson v. Dallas Cty. Tex., 286 Fed. Appx. 850, 858 (5th
Cir. 2008) (emphasis added).
269
Id.
270
Id.

App. 67
thereof ) of the municipality that permitted or
caused the act or omission.271
By nature, pretrial detainee suicide cases almost always involve some actor interposed between the detainee and the municipality, such that the complaint
first points to the actor and then derivatively to a municipal policy or lack thereof. Thus, one district court
tellingly noted in 2009 that “[t]he reported cases in the
Fifth Circuit uniformly hold that inmate suicides
involve episodic act or omissions claims.”272 Neither
party appears to have cited, and the Court cannot find,
any binding authorities in which a pretrial detainee
suicide action was classified as one for conditions of
confinement.
On the whole, the present case cannot properly be
classified as one for conditions of confinement. Plaintiffs point to the individual failures of Defendant’s
employees, thus interposing those employees between
Decedent and Defendant. For example, and specifically
in the “conditions[-]of[-]confinement” portion of their
briefing (and elsewhere), Plaintiffs contend that:
•

271

Garza and Coronado failed to make
timely cell checks on Decedent because
they were busy complying with an alleged
policy to post signage (an order from Ruben),273 and failed to ensure a cell check

Id. (quoting Scott v. Moore, 114 F.3d 51, 53 (5th Cir. 1997).
Hetchler v. Rockwall Cty., Tex., 2009 WL 1160284, at *4
(N.D. Tex. Apr. 27, 2009).
273
See e.g., id. pp. 10.
272

App. 68
was conducted on Decedent every hour in
compliance with official policy.274
•

Silva and Estrada ignored Veronica’s
warnings that she was afraid for Decedent’s safety and to relay such information to Jail employees.275

•

Perez failed to adequately monitor Decedent via video feed, either pursuant to
unofficial policy or custom, or otherwise
because she was negligent or intoxicated.276

•

Garza, Coronado, and other employees
failed to perform CPR on Decedent’s body
while waiting for someone else to arrive
and perform CPR.277

•

Suarez and Rosas failed to adequately cooperate with emergency medical responders.278

The beating heart of Plaintiffs’ case “implicates the
acts or omissions of individuals,”279 and interposes
those individuals between Decedent and Defendant,
taking aim at Defendant derivatively. Thus, on the
whole, this is an episodic act or omission case, not a
condition-of-confinement case.
274

Id. pp. 79 & 114.
Id. pp. 21-22 & 114.
276
See e.g., id. pp. 86-87, 104-105, 114-115.
277
Id. pp. 35, 114-115.
278
Id. pp. 36-37, 87-9, 115.
279
Estate of Henson v. Wichita Cty., Tex., 795 F.3d 456, 463
(5th Cir. 2015).
275

App. 69
Nevertheless, one particular complained-of policy
jumps out without the interposition of any individuals:
Defendant’s officers and jailers are not trained to prescreen every arrestee/detainee;280 rather, they are trained
to detect medical and psychological conditions as they
arise and then turn to health professionals in the event
such expertise is needed.281 While “[n]o decision of [the
Supreme Court] even discusses suicide screening or
prevention protocols,”282 the Fifth Circuit in Burns held
that pretrial detainees have no “absolute [constitutional] right to psychological screening.”283 In Evans,
the Fifth Circuit reaffirmed Burns, and stated: “the
failure to train custodial officials in screening procedures to detect latent suicidal tendencies does not rise
to the level of a constitutional violation.”284 Here, insofar as Defendant’s policy might constitute a condition
of confinement—it is not clear that it does—it cannot
be said that Decedent had an absolute constitutional
right to suicide screening in the first instance, or that
he demonstrated any obvious suicidal tendencies prior
to booking that might require a suicide screening.
Even so, Plaintiffs bear the burden to satisfy each
element of a condition-of-confinement claim, including
that the policy in question had no rational, non-punitive
280

Dkt. No. 35-4.
See Dkt. No. 33 p. 5; Dkt. No. 35-4 pp. 27-28 & 40-41.
282
Taylor v. Barkes, 135 S. Ct. 2042, 2044-45 (2015).
283
Burns v. City of Galveston, Tex., 905 F.2d 100, 104 (5th
Cir. 1990).
284
Evans v. City of Marlin, Tex., 986 F.2d 104, 108 (5th Cir.
1993).
281

App. 70
basis, and that not universally providing suicide
screenings caused Decedent’s suicide. Plaintiffs have
not provided any such evidence. Although Plaintiffs’
expert’s report indicates that failure to provide universal suicide screening is not an “acceptable”285 practice,
this does not mean that it had no rational basis. Such
is a question of law,286 and thus not subject to the opinions of any fact expert.
Ultimately, there is a rational basis for Defendant’s policy. Defendant’s Jail is a short-term holding facility where—unlike a county jail or state prison—
detainees do not stay long,287 and they thus have significantly less time to commit suicide. Ruben indicates
that “we’re really shooting at six hours or less.”288 It
served purpose of economy during the pendency of
such short stays to refrain from suicide screenings until it appeared to officers or jailers that there was a real
need for such an examination. Indeed, this strategy appears to have been effective, because no one previously
committed suicide in the Jail during its entire existence, a span of forty-five years.289 Under these unique
circumstances, Defendant’s policy cannot properly be

285

Dkt. No. 35-12 p. 34.
Gaalla v. Citizens Med. Ctr., 407 Fed. Appx. 810, 814 (5th
Cir. 2011) (“Whether a governmental action passes rational basis
muster is a question of law that this court reviews de novo.”).
287
Dkt. No. 35-4 pp. 35.
288
Id. p. 36.
289
Id. pp. 42 & 45.
286

App. 71
characterized as “punitive,” and without any rational
basis.
Plaintiffs also fail to provide any evidence from
which the Court can reasonably infer causation—that
universal suicide screenings would have prevented Decedent’s suicide. Plaintiffs’ expert’s report does conclude: “Had [Decedent] been screened, and responded
affirmatively that he was thinking of self-harm or suicide, then that would have necessitated additional levels of observation and protocol implementation.”290
However, there is no way to know whether Decedent
would have indicated he was thinking of suicide, and
thus no way to know whether additional levels of observation and protocol would have been implemented,
even assuming additional observation would have
saved Decedent. In sum, Plaintiffs have not submitted
evidence satisfying the necessary elements of a condition-of-confinement theory with regard to Defendant’s
policy to screen individuals on a case-by-case basis, rather than universally.
Generally speaking, Plaintiffs do not explain how
their Fourteenth Amendment Due Process allegation
arises from conditions of confinement, and they do not
explain how each necessary element of such a claim is
fulfilled. Rather, Plaintiffs briefly portend that Ruben’s
authorization of the “Punisher” and “Donna Hilton”
signs indicates a general mistreatment of detainees.291
This emphasis on the signs is misplaced for an obvious
290
291

Dkt. No. 35-12 p. 45.
Dkt. No. 35 p. 110.

App. 72
reason—there is no concrete causal relationship between them and Decedent’s death. The signs were not
posted at the time Decedent committed suicide and he
could not see them, so they could not have directly influenced his decision to kill himself. Plaintiffs’ suggestion that these signs indicate a general mistreatment
of detainees is also insufficient for failure to specify the
exact type of mistreatment supposedly behind Decedent’s death.
The closest Plaintiffs come to tying the signage to
Decedent’s suicide is the contention that Ruben’s authorization of the signs distracted Garza and Coronado
from properly monitoring Decedent.292 However, Garza
and Coronado are still interposed between Decedent
and Defendant such that an act or omission analysis
would be proper. It is not clear from the evidence when
Ruben expected the signs to be completed and posted,
and there is no evidence that Ruben ordered Garza and
Coronado to ignore Decedent in the process. With the
undisputed background policy that there be one-hour
cell checks, and the substantive compatibility of this
policy with Garza and Coronado’s authorization to post
signs, Plaintiffs are effectively pointing at Garza and
Coronado, and then derivatively to Defendant. Plaintiffs cannot prevail on this basis for reasons already
stated earlier in this opinion—Garza and Coronado
were not subjectively and deliberately indifferent.
Finally, the Court notes that Plaintiffs’ case is ineffective insofar as it rests upon the mere negligence of
292

Id. pp. 10 & 33.

App. 73
specific employees—acts or omissions which allegedly
contributed to Decedent’s suicide, yet not committed
pursuant to any identifiable policy or custom. The Fifth
Circuit has clearly stated:
A municipality can be found liable under
§ 1983 only where the municipality itself
causes the constitutional violation at issue,
for example, by establishing an unconstitutional policy or custom. Because respondeat
superior or vicarious liability will not attach
under § 1983, the county cannot be vicariously liable for the alleged actions of its jailers
or EMT’s.293
In sum, Defendant’s motion for summary judgment
with regard to Plaintiffs’ Fourteenth Amendment claim
is hereby GRANTED.
IV. HOLDING
For the foregoing reasons, Defendant’s motion for
summary judgment294 is GRANTED in full. Moreover,
because Plaintiffs’ expert’s report has no ultimate
bearing on the outcome, Defendant’s motion to disqualify and preclude Leach’s testimony295 is DENIED AS
MOOT. A final judgment will issue separately.
IT IS SO ORDERED.

293

Whitt v. Stephens Cty., 529 F.3d 278, 283 (5th Cir. 2008)
(emphasis added).
294
Dkt. No. 33.
295
Dkt. No. 34.

App. 74
DONE at McAllen, Texas, this 15th day of December 2017.
/s/ M. Alvarez
Micaela Alvarez
United States District Judge

App. 75
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-40044
-----------------------------------------------------------------------

JOSE LUIS GARZA, individually and as
Representatives of The Estate of Jose Luis Garza, Jr.,
Deceased; VERONICA GARZA, individually
and as Representatives of The Estate of
Jose Luis Garza, Jr., Deceased; CYNTHIA LOPEZ,
As Next Friend of J.R.G., Minor Son.
Plaintiffs - Appellants
v.
CITY OF DONNA
Defendant - Appellee
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
-----------------------------------------------------------------------

ON PETITION FOR REHEARING
(Filed May 30, 2019)
Before JOLLY, DENNIS, and HIGGINSON, Circuit
Judges.
PER CURIAM:

App. 76
IT IS ORDERED that the petition for rehearing is
DENIED.
ENTERED FOR THE COURT:
/s/ Stephen A. Higginson
UNITED STATES
CIRCUIT JUDGE

